                                                                                           Office of Inspector General

                                                                                           U.S. Department of Homeland Security
                                                                                           300 Frank H. Ogawa Plaza, Suite 275
                                                                                           Oakland, California 94612




                                                         April 20, 2006


MEMORANDUM FOR:                         Karen E. Armes
                                        Acting Regional Director
                                        FEMA, Region IX




FROM:                                   Robert J. Lastrico
                                        Director, Grants Program Management Audit Division

SUBJECT:                                Audit of Sonoma County, Santa Rosa, California
                                        Public Assistance Identification Number 097-00000
                                        FEMA Disaster Number 1203-DR-CA
                                        Audit Report Number DS-03-06


The Department of Homeland Security, Office of Inspector General (OIG) audited public assistance
grant funds awarded to Sonoma County, Santa Rosa, California (County). The objective of the audit
was to determine whether the County expended and accounted for Federal Emergency Management
Agency (FEMA) funds according to federal regulations and FEMA guidelines.

The County received a public assistance grant award of $7.8 million from the California Office of
Emergency Services (OES), a FEMA grantee, for debris removal, emergency protective measures,
and repairs to County facilities damaged as result of severe winter storms and flooding beginning
February 2, 1998 and continuing through April 30, 1998. The award provided 75 percent federal
funding for 22 large projects and 49 small projects.1 The audit covered the period of February 2,
1998, to June 24, 2003, and included a review of nine large projects with a total award of $5,278,824
(see Exhibit).

The OIG performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included a review of FEMA, OES, and County records, a judgmental sample of
project expenditures, and other auditing procedures considered necessary under the circumstances.

                                                   RESULTS OF AUDIT

The OIG questions $442,644 claimed by the County (FEMA’s share of the questioned amount is
$331,983). Specifically, we question $361,673 in costs claimed but not adequately supported,

1
    Federal regulations in effect at the time of the disaster set the large project threshold at $47,100.
$57,853 in ineligible costs, $13,050 of credit not provided to FEMA, and $10,068 in costs covered
under FEMA’s statutory administrative allowance.

Finding A – Unsupported Costs

The County claimed $361,673 in project costs that were not supported with documentation proving
the charges were disaster related. According to 44 CFR § 13.20(b)(2), the County is required to
maintain accounting records that identify how FEMA funds are used. While this disaster occurred in
February 1998, 44 CFR § 13.42 required the County to retain financial and programmatic records for
3 years from specified dates. If any action involving the records such as litigation, audit, etc., began
before the expiration of the 3-year period, the records must be retained until its completion. In
February 2003, OES forwarded to FEMA its “Project Completion and Certification Report”.
However, FEMA did not close the County award until April 25, 2003 when it determined that all
applicable administrative actions and all required work had been completed (see 44 CFR § 13.50).
Since the award was not closed until April 2003, the County should have retained all necessary
records to support its claim until April 24, 2006, or for 1 year after the audit began. Details
regarding the unsupported costs are provided below.

For the six projects shown in Table 1, the County’s records lacked source documentation such as
invoices, timesheets, or similar records to support $361,673 of the County’s claim. The projects
provided funding for debris removal and emergency protective measures. However, the County
could not produce documentation to support the costs it claimed for these projects.

                                                Table 1
                Project                                              Costs Claimed But
                Number                 Scope of Work                  Not Supported
                02860         Emergency Protective Measures                $ 31,294
                21946         Emergency Protective Measures                  87,196
                22207         Emergency Protective Measures                  16,715
                73773         Debris Removal                                 43,091
                73774         Emergency Protective Measures                  95,384
                92910         Emergency Protective Measures                  87,993
                                                         Total             $361,673

   County accounting records did not include invoices supporting costs claimed under four projects.

   •   For project 02860, accounting records did not include invoices for $24,570 in hired labor
       costs and $6,724 for supplies and equipment.

   •   For projects 73773 and 73774, accounting records included a summary report labeled
       “Audited”. This summary report and supporting invoices showed that a single contractor
       completed the scope of work under both projects, and that actual costs were less than the
       amounts claimed by the County. Those records showed that the County had over claimed
       $43,091 for project 73773 and $95,384 for project 73774. A similar discrepancy was
       identified for project 22207.

   County accounting records did not support force account labor costs claimed for two projects.


                                                   2
   •   Costs claimed for project 21946 pertained to overtime labor performed by management
       employees from 19 different County departments. The County’s policy allowed “straight
       time overtime” to management employees when working disaster hours beyond 40 hours.
       Records supporting the amount claimed included timesheets for only 4 of the 19 departments.
       Our review of those time sheets identified various instances where the overtime hours
       claimed were not in compliance with the County’s policy or timesheets did not identify that
       the employee worked overtime hours.

   •   Costs claimed for project 92910 pertained to overtime hours worked by the County’s Sheriff
       Department. The County’s support for the claim included a summary worksheet that
       identified employees and related overtime hours worked, payroll summary reports, time
       sheets, and forms completed by management for approving overtime (approval forms). Our
       review of those records identified instances where: 1) employees included in the summary
       worksheet did not appear in the payroll reports, 2) timesheets did not identify disaster
       overtime hours and were not accompanied by an approval form, and 3) time sheets were
       missing.

County officials agreed that County records did not include sufficient documentation to support the
amounts claimed for the projects and stated they would continue searching for records and provide
them to FEMA when responding to the final report. In regards to projects 21946 and 92910, County
officials explained that the records were either missing or had already been destroyed due to the
County’s records retention requirements. Since County records did not support the amounts
claimed, as required by federal regulations, we questioned $361,673.

Finding B – Ineligible Project Costs

The County’s claim for five projects included $57,853 in ineligible project charges attributable to:
1) costs for work outside the scope of the project, 2) costs that were the responsibility of another
federal agency, and 3) costs for an ineligible project improvement. Table 2 identifies the five
projects and respective ineligible costs.

                                                 Table 2
                                    Project             Claimed
                                    Number          Ineligible Costs
                                     02860              $ 24,867
                                     22206                11,128
                                     22207                  3,800
                                     79156                17,054
                                     92910                  1,004
                                         Total           $57,853

   For projects 02860 and 92910, the County claimed $25,871 in costs that were not within the
   approved scope of work. The projects provided funding for emergency protection measures.
   According to 44 CFR § 206.225(a)(3), emergency protective efforts must eliminate or lessen
   immediate threats to lives, public health or safety, or property.




                                                   3
       •   The claim for project 02860 included $24,867 in hired labor costs that were not within the
           project scope. The costs pertained to hired labor that was temporarily assigned to work on
           another FEMA grant program.2
       •   The claim for project 92910 included costs for helicopter emergency services that were
           supported by manually prepared summary reports and flight logs. Review of those records
           showed that $1,004 of the $6,114 claimed was for other than emergency protective measures.

       For projects 22206 and 22207, the County claimed $14,928 ($11,128 and $3,800) in costs that
       were the responsibility of another federal agency. According to 44 CFR § 206.223(a)(3), to be
       eligible for financial assistance, an item of work must be the legal responsibility of an eligible
       applicant. Also, the Stafford Act does not allow funding for disaster costs paid under another
       program, insurance, or any other source.

       •   The claim for project 22206 included $11,128 for lodging and meal costs of California
           National Guard (Guard) members who provided assistance during the disaster. The
           Department of Defense pays the costs of lodging and meals directly to individual Guard
           Members during mission assignments. The Guard assisted the County with emergency
           protective measures that included security, and search and rescue.

       •   The claim for project 22207 included $3,800 in engineering costs pertaining to a Federal
           Highway project, a cost that FEMA had previously determined not eligible.

       For Project 79156, the County claimed $17,054 in ineligible improved project costs. According
       to 44 CFR § 206.226, claimed costs are limited to restoring damaged facilities to their
       pre-disaster condition without allowing for non-code requirements. FEMA records show that the
       scope of the project entailed a 90 linear feet standard pile retaining wall, and the County planned
       to construct a larger wall of 110 linear feet at its own expense. However, the claim for the
       project included costs for the larger wall and was not reduced by the expenses relating to the
       construction of the additional 20 linear feet (110 less 90 linear feet). We multiplied the
       percentage of additional linear feet,3 times the total cost incurred for the wall for labor,
       equipment, and material and determined that the ineligible improved project costs were $17,054
       (18.18% times $93,806).

As was the case with finding A, County officials stated they would continue searching for records
and provide them to FEMA when responding to the final report. In response to project 22206,
County officials stated that they were not aware that the Department of Defense paid the costs of
lodging and meals directly to individual Guard Members during mission assignments. Since the
County included ineligible costs in the claims for the above five projects, we questioned $57,853.

Finding C – Credit Not Provided to FEMA

The County’s claim for project 73774 did not include a credit due to FEMA of $13,050. As a
condition of receiving funding for this project, the County agreed to credit the cost of the project
with the salvage value of used and unneeded materials that were funded by FEMA for another


2
    Hazard Mitigation Grant Program
3
    20 linear feet divided by 110 linear feet equals 18.18 percent

                                                               4
project.4 County records supporting total costs for project 73774 showed that the County did not
reduce the project claim. Since the County did not comply with the project funding agreement by
reducing total costs with the salvage value of the used and unneeded materials, we questioned
$13,050.

Finding D - Costs Covered Under FEMA’s Statutory Administrative Allowance

The County’s claim for project 95818 included $10,068 in costs covered by FEMA’s statutory
administrative allowance. According to 44 CFR § 206.228(a)(2)(ii), the County is reimbursed for
the direct and indirect cost associated with requesting, obtaining, and administering public assistance
based on a statutory percentage allowance. Based on direct costs claimed by the County, FEMA
paid an administrative allowance of $75,246. However, the County also claimed as direct costs
$10,068 paid to two consultants for assisting in the contract bidding process. Since the County is
reimbursed for administrative costs based on the allowance, the same costs are not allowed as direct
project costs. Therefore, the $10,068 is questioned.

                                      RECOMMENDATION

The OIG recommends that the Acting Regional Director, FEMA Region IX, in coordination with
OES, disallow $442,644 in costs claimed by the County.

                    DISCUSSIONS WITH MANAGEMENT AND AUDIT FOLLOW UP

The OIG discussed the results of this audit with County officials on March 8, 2006. Comments
made by County officials are incorporated in each finding above. OIG also notified FEMA and OES
officials of the audit results on March 13, 2006.

Please advise this office by June 19, 2006 of the actions taken to implement the recommendation in
this report. Should you have any questions concerning this report, please contact me at (510) 637-
1482. Key contributors to this assignment are Humberto Melara, Arona Maiava, and Gloria Conner.




4
    Project 73773

                                                   5
                                                                    Exhibit


                   Schedule of Audited Projects
              Sonoma County, Santa Rosa, California
        Public Assistance Identification Number 097-00000
              FEMA Disaster Number 1203-DR-CA


     Project         Amount        Questioned     Finding
       No.           Awarded          Costs      Reference
     02860        $ 594,919         $ 56,161       A, B
     21946           114,930          87,196         A
     22206           450,169          11,128         B
     22207           231,174          20,515       A, B
     73773           192,842          43,091         A
     73774           356,380        108,434        A, C
     79156           138,076          17,054         B
     92910           292,143          88,997       A, B
     95818         2,908,191          10,068         D
      Total       $5,278,824       $442,644




Finding Reference Legend
A – Unsupported Costs
B – Ineligible Project Costs
C – Credit Not Provided to FEMA
D – Costs Covered Under FEMA’s Statutory Administrative Allowance




                               6
